         OFFICE OF INSPECTOR GENERAL 




                                   Catalyst for Improving the Environment


Special Report




       Assessing EPA’s Efforts to
       Protect Sensitive Information

       Report No. 2006-S-00006 



       September 19, 2006

Report Contributors:               Rudolph M. Brevard
                                   Charles Dade      

                                   Cheryl Reid     





Abbreviations

CIO          Chief Information Officer
DCI          Data Collection Instrument
ECIE         Executive Council on Integrity and Efficiency
EPA          U.S. Environmental Protection Agency
FAEC         Federal Audit Executive Council
IG           Inspector General
IT           Information Technology
NIST         National Institute of Standards and Technology
OMB          Office of Management and Budget
PAS          Privacy Act Statement
PCIE         President’s Council on Integrity and Efficiency
PDA          Personal Digital Assistant
PII          Personally Identifiable Information
SP           Special Publication
VPN          Virtual Private Network
                     UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                  WASHINGTON, D.C. 20460




                                                                                    OFFICE OF 

                                                                               INSPECTOR GENERAL




                                      September 19, 2006

MEMORANDUM

SUBJECT:              Assessing EPA’s Efforts to Protect Sensitive Information
                      Report No. 2006-S-00006

TO:                   Charles Coe
                      President’s Council on Integrity and Efficiency


Attached is the U.S. Environmental Protection Agency Office of Inspector General’s completed
Data Collection Instrument, as prescribed by the President’s Council on Integrity and Efficiency
(PCIE) to use in meeting its requirements under Office of Management and Budget (OMB)
Memorandum M-06-16, Protection of Sensitive Agency Information.

In accordance with the PCIE Federal Audit Executive Council reporting instructions, I am
forwarding this report to you for consolidation with other Federal Agency OIG reports, and
subsequent submission to the Director, OMB. Should you have any questions regarding this
report, please contact Rudolph Brevard at (202) 566-0893 or brevard.rudy@epa.gov, or Cheryl
Reid at (919) 541-2256 or reid.cheryl@epa.gov.


                                            Sincerely,



                                            Bill A. Roderick
                                            Acting Inspector General
                                                                   APPENDIX I: IG DATA COLLECTION INSTRUMENT

This data collection instrument (DCI) was developed by the Federal Audit Executive Council (FAEC) Information Technology (IT) Committee of the President’s Council on Integrity and Efficiency
(PCIE)/Executive Council on Integrity and Efficiency (ECIE) to assist Inspectors General (IGs) in determining their Agency's compliance with Office of Management and Budget (OMB)
Memorandum M-06-16. The data collection instrument contains three parts. The first part is based on a security checklist developed by the National Institute of Standards and Technology (NIST)
(see Section 1 below). Questions in the DCI are designed to assess Agency requirements in the memorandum, which are linked to NIST Special Publication (SP) 800-53 and 800-53A. Each IG
can use the associated checklist and the relevant validation techniques for their own unique operating environment. Section 2 is the additional actions required by OMB M-06-16. Section 3 should
document your overall conclusion as well as detailed information regarding the type of work completed and the scope of work performed.


For each overall Step and Action Item, please respond yes, no, partial, or not applicable. For no, partial, and not applicable responses, please provide additional information in the comments
sections. After the yes, no, partial, or not applicable response, IGs have the option to provide an overall response using the six control levels as defined below for the overall Step. Each condition
for the lower level must be met to achieve a higher level of compliance and effectiveness. For example, for the control level to be defined as "Implemented", the Agency must also have policies
and procedures in place. The determination of the control level for each Step should be based on the responses provided to the Action Items included in that Step.

Controls Not Yet in Place - The answer would be "Controls Not Yet in Place" if the Agency does not yet have documented policy for protecting personally identifiable information (PII).
Policy - The answer would be "Policy" if controls have been documented in Agency policy.
Procedures - The answer would be "Procedures" if controls have been documented in Agency procedures .
Implemented - The answer would be "Implemented" if the implementation of controls has been verified by examining procedures and related documentation and interviewing personnel to
determine that procedures are implemented .
Monitor & Tested - The answer would be "Monitor & Tested" if documents have been examined and interviews conducted to verify that policies and procedures for the question are implemented
and operating as intended.
Integrated - The answer would be "Integrated" if policies, procedures, implementation, and testing are continually monitored and improvements are made as a normal part of Agency business
processes.




                                                                                                  A - 1

                                                                     APPENDIX I: IG DATA COLLECTION INSTRUMENT

                         PLEASE PROVIDE YOUR RESPONSES USING THE DROP DOWN MENU IN GRAY
Section One
Security Controls and Assessment Procedures

Security Checklist For Personally Identifiable Information That Is To Be Transported



and/ or Stored Offsite, Or That Is To Be Accessed Remotely
                                                                                                          REQUIRED RESPONSE OPTIONAL               RESPONSE
                                                                                                                            Controls Not Yet in Place
                                                                                                                  Yes       Policy
                                                                                                                  No        Procedures
                                              Procedure                                                          Partial    Implemented
                                                                                                             Not Applicable Monitor & Tested
                                                                                                                            Integrated
STEP 1: Has the Agency confirmed identification of personally identifiable information
protection needs? If so, to what level?                                                                             Partial
Action Item 1.1: Has the Agency verified information categorization to ensure identification of
personal identifiable information requiring protection when accessed remotely or physically
removed?                                                                                                            Partial
Comments: Agency representatives stated during Phase I of the Personally Identifiable Information (PII) Workgroup's Action Plan they reviewed 43 existing
Systems of Records Notices to determine: 1) if the collection is still necessary, 2) if all the PII elements are required, 3) if there are elements being collected
unnecessarily that can be removed, and 4) if the routine uses are still relevant. The Agency has not yet identified all PII; this is listed as a planned tasks during
Phase II in the Workgroup's Action Plan.
Action Item 1.2: Has the Agency verified existing risk assessments?                                                   No
Comments: The Agency has not yet established a baseline of all Agency systems that contain PII.
OVERALL STEP 1 COMMENTS: The Agency has not yet identified all PII.

                                                                                                          REQUIRED RESPONSE OPTIONAL                          RESPONSE

                                                                                                                   Yes               Controls Not Yet in Place
                                                                                                                   No                Policy
                                              Procedure                                                           Partial            Procedures
                                                                                                              Not Applicable


STEP 2: Has the Agency verified the adequacy of organizational policy? If so, to what level?                       Partial
Action Item 2.1: Has the Agency identified existing organizational policy that addresses the
information protection needs associated with personally identifiable information that is accessed
remotely or physically removed?                                                                                     Yes
Comments: The Agency implemented an interim Policy for Protecting PII. The policy addresses implementing specific safeguards for protecting PII that is
accessed remotely or physically removed.


                                                                                                    A-2
                                                                    APPENDIX I: IG DATA COLLECTION INSTRUMENT

Action Item 2.2: Does the existing Agency organizational policy address the information protection
needs associated with personally identifiable information that is accessed remotely or physically
removed?                                                                                                        Partial

                                                                                                                 Yes

1. For personally identifiable information physically removed:                                                  Partial

a. Does the policy explicitly identify the rules for determining whether physical

removal
b.       is allowed?
   For personally identifiable information that can be removed, does the policy

 require that information be encrypted and that appropriate procedures, training
 and accountability measures are in place to ensure that remote use of this
                                                                                                                 Yes
 encrypted information does not result in bypassing the protection provided by
the encryption?
 2. For personally identifiable information accessed remotely:
                                                                                                                  No
a. Does the policy explicitly identify the rules for determining whether remote

access is allowed?
b. When remote access is allowed, does the policy require that this access be                                    Yes

 accomplished via a virtual private network (VPN) connection established using
 Agency-issued authentication certificate(s) or hardware tokens?
 c. When remote access is allowed, does the policy identify the rules for
Comments: The Agency implemented an interim Policy for PII. This policy addresses specific safeguards for protecting PII that is accessed remotely or physically removed by employees.
However,  thiswhether
 determining   interim policy doesand
                       download    notremote
                                        includestorage
                                                requirements   for ensuringisthat: 1) appropriate training and accountability measures are in place, and 2) a VPN connection established using Agency-
                                                       of the information
issued authentication certificate(s) or hardware tokens is used for remote access of PII. In addition, the policy does not address encryption requirements for transporting and/or remotely storing
allowed? (For example, the policy could permit remote access to a database,
backup media that contain PII.
but prohibit downloading and local storage of that database.)
Action Item 2.3: Has the organizational policy been revised or developed as needed, including
steps 3 and 4?                                                                                                      Partial
Comments: All PII data in electronic format taken offsite by an employee must be encrypted. The Agency has not yet identified all instances where PII is being
transported to and stored at remote sites.


OVERALL STEP 2 COMMENTS: The Chief Information Officer's (CIO's) interim policy does not include specific requirements for: 1) training and
accountability measures, 2) using a VPN connection established using Agency-issued authentication certificate(s) or hardware tokens for all remote
access of PII, and 3) encrypting backup media containing PII that is transported and/or stored offsite.




                                                                                                  A-3
                                                                    APPENDIX I: IG DATA COLLECTION INSTRUMENT


                                                                                                                                   Controls Not Yet in Place
                                                                                                                  Yes              Policy
                                                                                                                  No               Procedures
                                             Procedure                                                           Partial           Implemented
                                                                                                            Not Applicable         Monitor & Tested
                                                                                                                                   Integrated
                                                                                                                 Partial
STEP 3: Has the Agency implemented protections for personally identifiable information
being transported and/or stored offsite? If so, to what level?
Action Item 3.1: In the instance where personally identifiable information is transported to a remote
site, have the NIST Special Publication 800-53 security controls ensuring that information is
transported only in encrypted form been implemented?                                                             Partial


Comments: The CIO's interim policy states that all PII data in electronic format taken offsite by an employee must be encrypted. All encryption technologies used
 * Evaluation
to            could
   transport and    include
                  work      an assessment
                        on PII offsite mustofbe
                                              tools used to transport
                                                 validated  accordingPII
                                                                      tofor
                                                                         theuse of encryption.
                                                                             Federal   Information Planning Standards 140-2. The Agency has not yet identified all
instances when backup media that contain PII is being transported to remote sites and whether transportation methods use encryption.
Action Item 3.2: In the instance where PII is being stored at a remote site, have the NIST SP 800-
53 security controls ensuring that information is stored only in encrypted form been implemented?                      No




* Evaluation could
Comments:          include has
             The Agency    a review of remote
                                not yet        site facilities
                                        identified             and operations.
                                                    all instances   when backup media that contain PII is being stored at remote sites and whether storage methods use
encryption.
OVERALL STEP 3 COMMENTS: The Agency has not yet identified all instances where PII is being transported and/or stored offsite.




If personally identifiable information is to be transported and/or stored offsite
follow Action Item 4.3, otherwise follow Action Item 4.4




                                                                                                   A - 4

                                                                  APPENDIX I: IG DATA COLLECTION INSTRUMENT


                                                                                                     REQUIRED RESPONSE OPTIONAL               RESPONSE
                                                                                                                       Controls Not Yet in Place
                                                                                                             Yes       Policy
                                                                                                             No        Procedures
                                            Procedure                                                       Partial    Implemented
                                                                                                        Not Applicable Monitor & Tested
                                                                                                                       Integrated
STEP 4: Has the Agency implemented protections for remote access to personally                               No
identifiable information? If so, to what level?
Action Item 4.1: Have NIST Special Publication 800-53 security controls requiring authenticated,
virtual private network (VPN) connection been implemented by the Agency?                                       No



Comments: The Agency has several remote access methods. One method has a VPN and is used mainly by external business partners (nonemployees) to access
EPA networks. However, the CIO's interim policy directs employees to use two specific remote access methods, neither of which include the VPN remote access
* Evaluation could include a review of the configuration of VPN application(s).
method.
Action Item 4.2: Have the NIST Special Publication 800-53 security controls enforcing allowed
downloading of personally identifiable information been enforced by the Agency?                                No



Comments: The Agency has not identified all PII. In addition, the interim Agency policy does not include all NIST SP 800-53 security controls. For example, the
policy does not include NIST SP 800-53 AC- 4 "Information Flow Enforcement" Control. This control requires that the information system enforces assigned
 * Evaluation could
authorizations      include a the
               for controlling review
                                   flowofofcontrols for downloading
                                            information               PII. and between interconnected systems in accordance with applicable policy.
                                                         within the system
If remote storage of personally identifiable information is to be permitted follow
Action Item 4.3, otherwise follow Action Item 4.4.

Action Item 4.3: Have the NIST Special Publication 800-53 security controls enforcing encrypted remote storage of personally identifiable information been
implemented by the Agency?
                                                                                                              No
Comments: The Agency has not yet identified all instances of remotely stored PII. The Agency has not enforced that all remotely stored PII be encrypted.
Action Item 4.4: Has the Agency enforced NIST Special Publication 800-53 security controls
enforcing no remote storage of personally identifiable information?                                      Not Applicable

Comments:


OVERALL STEP 4 COMMENTS: The Agency has several remote access methods. One method has a VPN and is used mainly by external business
partners (nonemployees) to access EPA networks. However, the policy does not require the use of a VPN to remotely access PII. In addition, Agency
policy does not address all controls specified in SP NIST 800-53. Furthermore, the Agency has not yet identified all PII that is remotely transported
and/or stored or enforced encryption of this PII.
(The source for all the control steps above is NIST SP 800-53 and SP 800-53A assessment procedures.)

                                                                                                A - 5

                                                                   APPENDIX I: IG DATA COLLECTION INSTRUMENT

Section Two

                     Additional Agency Actions Required by OMB M-06-16

                                                                                                                Yes
                                                                                                                No
                                             Procedure                                                         Partial
                                                                                                           Not Applicable

1. Has the Agency encrypted all data on mobile computers/devices which carry Agency data unless
the data is determined to be non-sensitive, in writing by Agency Deputy Secretary or an individual
he/she may designate in writing?                                                                                  No
Comments: The Agency does not encrypt all data on mobile computers/devices unless the data is determined to be non-
sensitive, in writing by the Deputy Administrator or designee. Instead, the CIO's interim policy requires Senior Information
Officials (SIOs) to approve, in writing, employees who work on PII at offsite locations and that this PII must be encrypted.
Employees are prohibited from downloading and/or locally storing PII unless specifically authorized in writing by the SIO. If
authorized by the SIO to download and/or locally store PII, employees must save PII files in an encrypted form. SIO’s must
establish procedures to document all approved downloads and/or local storage of PII and document proper encryption.

2. Does the Agency use remote access with two-factor authentication where one of the factors is
provided by a device separate from the computer gaining access?                                                 Partial
Comments: EPA's Remote Access Website identifies several forms of remote access. Two of the methods are described on
the website as (1) having two-factor authentication and (2) encrypting the entire remote access session.

3. Does the Agency use a “time-out” function for remote access and mobile devices requiring user
re-authentication after 30 minutes inactivity?                                                                Partial
Comments: The Agency has several remote access methods. The Agency policy requires time-out settings of 30 minutes for
two of the remote access methods. The Agency's Chief Technology Officer has issued a memorandum requiring Information
Resource Management Branch Chiefs, Information Security Officers, and Information Management Officers to help
employees implement setting of Blackberry devices to time-out at 30 minutes or less. If employees utilize a PDA other than a
Blackberry, they must follow these same practices and enable their device’s password protection capabilities.

4. Does the Agency log all computer-readable data extracts from databases holding sensitive
information and verifies each extract including sensitive data has been erased within 90 days or its
use is still required?

Comments: The CIO issued an interim policy on August 23, 2006. It requires all SIOs throughout the Agency to approve, in
writing, employees who work on PII at offsite locations by using a mandatory approval form included in this policy. Each SIO
must establish procedures to document all approved downloads and/or local storage of PII. Each SIO must also ensure that
all such PII has been erased within 90 days using the tools and procedures appropriate to individual file deletion, according to
the EPA Procedures for Disk Sanitization, or verify and authorize its continued use. Due to the short time interval between the
date the policy was issued and our reporting deadline, we were unable to verify whether these procedures were established
and implemented throughout the Agency. We plan to audit EPA's PII controls in FY 2007.


                                                                                                 A - 6

                                                                  APPENDIX I: IG DATA COLLECTION INSTRUMENT

Section Three

To assist the PCIE/ECIE in evaluating the results provided by individual IGs and in creating the government-wide response, please provide the following information:
Type of work completed (i.e., assessment, evaluation, review, inspection, or audit).
OIG Response: Assessment - Due to the time constraints, the scope of our work involved focused interviews and examinations of documents. We plan to audit EPA's PII controls in FY 2007.
Scope and methodology of work completed based on the PCIE/ECIE review guide Step 2 page 4. (Please address the coverage of your assessment, and include any comments you
deem pertinent to placing your results in the proper context.)
OIG Response: We conducted focused interviews with EPA's Security and Privacy Offices. We performed focused examinations of the 1) CIO's Interim Policy and Procedures for Protecting
Personally Identifiable Information, 2) Office of Environmental Information Website describing remote access methods, 3) PII Workgroup Action Plan, 4) list of Systems of Records Notices, and 5)
Agency memorandum on configuring Blackberry and PDA devices.
                                                               Assessment Methodologies Used to Complete the DCI Sections
                                                                                                                                          Mark All That Apply

                                                                                                                                       Section One                                       Section
                                                                                                                                                                                          Two
                                                                                                              Step 1                          Step 2                   Step 3   Step 4
Interviews (G/F/C)                                                                                               F                                                       F        F
Examinations (G/F/C)                                                                                             F                               F                       F        F         F
Tests (independently verified - Y/N)                                                                            N                               N                        N        N         N


Assessment Method Descriptions consistent with NIST SP 800-53A - Appendix D pages 34 - 36.
G = Generalized. F = Focused. C = Comprehensive. Y = Yes. N = No.




                                                                                                A-7
                                                                    APPENDIX I: IG DATA COLLECTION INSTRUMENT

Overall Summary Statement. (Please refer to page five of the review guide for sample language for summary statements.)
Based on our assessment, we found that the Agency has taken the following steps to protect its sensitive personal information:
     Created a PII Workgroup and three phase Action Plan.
•      − During Phase I the workgroup reviewed the Agency's existing Systems of Records Notices to determine: (1) if the collection is still necessary, (2) if all the PII elements are required, (3) if
there are PII elements being collected unnecessarily and can be removed, and (4) if the routine uses (i.e., disclosures to other parties) are still relevant.
      − During Phase II the workgroup plans to: 1) establish Agency baseline of systems that contain PII by identifying all Agency systems that require Privacy Impact Assessments and
determining if additional Systems of Records Notices are needed, 2) review Agency forms to determine if PII is collected; if any/all PII elements on the form are needed; ensure Privacy Act
Statement (PAS) is present on form collecting PII and whether the PAS is adequate, 3) review final draft Privacy Policy to ensure PII concerns are adequately addressed and 4) determine the
procedures required to fully implement the Privacy Policy.
      − During Phase III the workgroup plans to: 1) identify critical training needs, 2) coordinate Security and Privacy Oversight Responsibilities/Activities, 3) address privacy in Agency contracts,
and 4) submit report to the Administrator.
     Issued CIO Policy Transmittal 06-011: Interim Policy and Procedures for Protecting Personally Identifiable Information (PII).
•    Updated the Standard Configuration Document for Blackberry Devices to Safeguard Information.
•
The Agency needs to improve in the following areas:
    Identify all PII information.
•   Ensure the policy includes specific requirements for 1) training and accountability measures, 2) using a VPN connection established using Agency-issued authentication certificate(s) or
 •
hardware tokens for all remote access of PII, and 3) encrypting PII that is transported and/or stored offsite.




                                                                                                  A-8
                                    Distribution

Office of the Administrator
Agency Followup Official
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Acting Inspector General
